Audit of Selected Processes at the
  Inter-American Foundation


     Report No. 9-IAF-01-001-P
        February 26, 2001




          Washington, D.C.
                                                                           February 26, 2001

MEMORANDUM FOR IAF Interim President, David W. Valenzuela

FROM:	                         IG/A/PA, Dianne L. Rawl

SUBJECT:	                      Audit of Selected Processes at the Inter-American Foundation
                               (Audit Report No. 9-IAF-01-001-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered your comments on our draft report. We have included those comments, in
their entirety, as Appendix II.

We conducted this audit in response to a request by the Chairman of the Senate Foreign
Relations Committee. This report includes two procedural recommendations. Based on
your written comments on the draft report, we concur with management’s decisions with
respect to both recommendations. Please provide written notice within 30 days relating
to actions taken or planned to complete the corrective actions for each of the
recommendations in this report.

I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during this review.

________________________________________________________________________
Background
The Inter-American Foundation (the “Foundation”) is a U. S. Government corporation
created in 19691 as an experimental U. S. foreign assistance program. The Foundation
awards grants to local “grassroots” organizations throughout Latin America and the
Caribbean to promote equitable, participatory, and sustainable self-help development.
The management of the Foundation is vested in a nine-person Board of Directors
appointed by the President of the United States. Six Board members are drawn from the
private sector and three from among officers or employees of agencies of the United
States government concerned with inter-American affairs. The Board appoints the
Foundation’s president who acts as the chief executive officer.


1
    See the Foreign Assistance Act of 1969 (22 USC 290f).
Foundation headquarters are located in Arlington, Virginia, and staffed with about 46
employees. The Foundation has no overseas staff. It obtains in-country services by
contracting with local professionals to provide technical assistance to Foundation
grantees and evaluations of grant results.

The Foundation’s budget consists of congressional appropriations and funds derived
through the Social Progress Trust Fund. The Foundation’s budget for fiscal year 2000
included $10 million in appropriations ($5 million in new appropriations and $5 million
in unused appropriations from the prior years) and $12 million in trust funds. Since
1972, the Foundation has made 4,257 grants totaling $502 million. Currently, the
Foundation has about 230 active grants in 16 countries.

In November 1999, Public Law 106-113 amended the responsibilities of the USAID
Office of the Inspector General (OIG), under Section 8A(a) of the Inspector General Act
of 1978, to include audit responsibility for the Foundation. Pursuant to this new
authority, the Chairman of the Senate Foreign Relations Committee requested that we
answer the questions shown below.

________________________________________________________________________
Audit Objective

We designed the audit to answer the following questions:

       Did the Inter-American Foundation select the appropriate mechanisms for
       obtaining in-country services and representation?

       Did the Inter-American Foundation comply with federal laws and
       regulations pertaining to the rate of obligation of appropriated funds in the
       last month of the fiscal year?

       Did the Inter-American Foundation properly categorize program and
       operating costs?

Appendix I contains a complete discussion of the scope and methodology for this audit.

________________________________________________________________________
Audit Findings

Did the Inter-American Foundation select the appropriate mechanisms for
obtaining in-country services and representation?

The Foundation has decided to use competitively awarded contracts as the mechanism for
obtaining in-country services and representation. In our opinion, such contracts are
appropriate mechanisms for obtaining in-country services and representation. Earlier in
2000, however, the Foundation considered using cooperative agreements to obtain some
of the services it had previously obtained only through contracts and notified Congress of
                                            2
those plans. While awaiting Congressional approval, all of the Foundation’s existing
contracts for in-country services expired. While discussions between the Foundation and
Congress concerning the proposed use of cooperative agreements continued, the
Foundation awarded short-term non-competitive purchase orders to ensure that technical
assistance services would continue to be available in some countries where it has
programs. Once the Foundation decided not to use cooperative agreements to obtain any
overseas services, it began to award new contracts but had not completed this process by
the end of our audit.

The Foundation Needs to Complete the
Process of Awarding Competitive Contracts

Federal laws and regulations require agencies to use procurement contracts when the
principal purpose of the obligation of funds is to acquire property or services for the
direct benefit or use of the U.S. Government. The Federal Acquisition Regulation (FAR)
and the Competition in Contracting Act (CICA) require that Federal agencies obtain
services, except in certain situations, through competitive contracts with full and open
competition. As stated above, the Foundation allowed all of its in-country technical
assistance contracts to expire as of June 30, 2000, planning to replace them with
cooperative agreements. When Congress resisted this plan, the Foundation executed
short-term, sole-source contracts, on an interim basis, in 5 of the 16 countries in which it
has activities.      Sole-source waivers were obtained. Subsequently, Foundation
management decided to abandon its plan to use cooperative agreements and agreed to
“follow the contractual route.” Meanwhile, the Foundation currently has no provision for
obtaining technical assistance services for grantees in most of the countries in which it
has activities. Without competitive long-term contracts in place, many of the
Foundation’s grant recipients may not receive needed technical assistance and training on
a timely basis. Also, the Foundation’s use of interim sole-source contracts could
potentially result in higher costs, reduced quality of service, and unfair selection of
contractors.

          Recommendation No. 1: We recommend that the Inter-American
          Foundation promptly complete the process of awarding competitive
          contracts to obtain in-country technical assistance for grantees in all
          countries in which the Foundation has activities.

Determining the appropriate funding mechanism to provide assistance or obtain services
has not been a simple matter for Federal agencies. Long-standing confusion between
grant relationships and procurement relationships resulted in the Federal Grant and
Cooperative Agreement Act of 1977.2 This legislation established standards for agencies
to use in order to choose the most appropriate funding vehicle–a procurement contract, a
grant, or a cooperative agreement. According to the Act, agencies were to use a
procurement contract when “the principal purpose of the instrument is to
acquire…property or services for the direct benefit or use of the United States

2
    31 USC §§ 6301-6308.
                                             3
Government.”3 On the other hand, a cooperative agreement was to be used when “the
principal purpose of the relationship is to transfer a thing of value to the…recipient to
carry out a public purpose of support or stimulation authorized by a law of the United
States instead of acquiring…property or services for the direct benefit or use of the
United States Government.”4

Prior to July 2000, the Foundation employed In-Country Service (ICS) contractors in
each country in which it had active grants5. The ICS contractors were responsible for
providing pre-award assistance to potential grantees and continuing technical assistance
to approved grantees. In addition, ICS contractors monitored and evaluated grantee
projects for the Foundation. We believe that the principal purpose of the Foundation’s
relationship with its ICS contractors was to acquire the services of those contractors, as
overseas intermediaries, to perform functions that might otherwise be performed by
Foundation staff. Consequently, based on the criteria reviewed above, we believe that a
procurement contract was, and remains, the appropriate mechanism for obtaining those
services.

However, the Foundation recently determined that it was inappropriate for ICS
contractors to provide technical assistance to help grantees design and implement projects
and also evaluate their resulting performance. Therefore, the Foundation decided to
separate these functions by 1) using cooperative agreements with one organization, or
individual, to provide technical assistance, and 2) contracts with another to provide
evaluation services in each of the countries in which the Foundation funded grants.
Consequently, the Foundation allowed all of its ICS contracts to expire as of June 30,
2000, with the expectation of quickly awarding new contracts for evaluation services and
cooperative agreements for technical assistance services.

By November 2000, the Foundation had competitively awarded new contracts to provide
evaluation services in 15 of the 16 countries in which it had active grants and was in the
process of selecting a contractor in the last remaining country. However, when the
Foundation proposed and sought Congressional approval to use cooperative agreements
to obtain technical assistance services, the Senate Foreign Relations Committee withheld
its approval pending a discussion of the appropriateness of using cooperative agreements
for such a purpose.6 After several months, the Foundation decided to abandon its
proposal and continue using contracts, even though Foundation management continued to




3
  31 USC § 6303.
4
  31 USC § 6305.
5
  The contractor in Argentina also monitored projects in Chili and Paraguay; the contractor in Bolivia
monitored projects in Ecuador, the contractor in Panama monitored projects in Nicaragua, and Foundation
Headquarters monitored projects in Cost Rica.
6
  The Foundation’s General Counsel laid out management’s reasoning for selecting cooperative agreements
in a memo to the Senate Foreign Relation’s Counsel dated September 22, 2000. While we disagree with
this reasoning based on the criteria presented in this report, the argument becomes moot since the
Foundation has decided not to use cooperative agreements (see following footnote).
                                                    4
believe that cooperative agreements would have been appropriate mechanisms for
providing technical assistance to grantees.7

When it became aware that Congressional approval for its proposal would not be
immediately forthcoming, the Foundation awarded some short-term, sole-source purchase
orders in order to provide grantees with technical assistance on an interim basis.
Appropriate sole-source waivers were obtained when necessary. However, as of
December 2000, the Foundation had only awarded purchase orders in 5 of the 16
countries in which it had active grants. Consequently, at the conclusion of our audit, the
Foundation did not have a mechanism for providing in-country technical assistance
services to grantees in most of the countries in which it had activities. Without such a
mechanism, many of the Foundation’s grant recipients may not receive needed technical
assistance and training on a timely basis.

The Federal Acquisition Regulation (FAR) and the Competition in Contracting Act
(CICA) require that federal agencies obtain services, except in certain situations, through
competitive contracts with full and open competition. The Foundation’s continued use of
short-term, non-competitive purchase orders could potentially result in higher costs and
services of less than the best available quality. Consequently, we recommended that the
Foundation proceed as quickly as possible to complete the process of awarding
competitive contracts to provide technical assistance services to grantees in all countries
in which the Foundation has activities. In response to this recommendation, Foundation
management stated that it had already begun the process of awarding such contracts prior
to our audit. Based on its response to Recommendation No. 1, we concur with
management’s decision.

Did the Inter-American Foundation comply with federal laws and regulations
pertaining to the rate of obligation of funds during the last month of the fiscal year?

The Foundation complied with a provision in foreign operations appropriations
legislation for fiscal year 1999 that required that not more than 15 percent of the
appropriations provided for that year be obligated during the last month of availability.
Nevertheless, the Foundation’s General Counsel does not believe that this provision
applies to the Foundation. To help ensure future compliance with this provision, if
necessary, we believe that the Foundation should obtain a definitive legal determination
as to its applicability to the Foundation.




7
  In a November 8, 2000 letter to the Chairman of the Senate Foreign Relations Committee, the
Foundation’s Interim President indicated that the Foundation had decided to withdraw its proposed
cooperative agreements for providing training and technical assistance to Foundation grantees in favor of
contracts. The letter stated, “While we continue to believe that a cooperative agreement is an appropriate
instrument for providing this assistance to our grantees, we will follow the contractual route.”
                                                      5
The Applicability of a Funding Provision
to the Foundation Needs to be Determined

Section 501 of the Foreign Operations Appropriation Act of 1999 requires that not more
than 15 percent of any appropriation be obligated during the last month of availability.
According to the Act, the funds appropriated for the Foundation for fiscal year 1999 were
“two-year” funds which were to remain available for obligation until September 30,
2000. However, because there is uncertainty as to whether or not this provision applies
to the Foundation, and the applicability of this provision may impact the Foundation in
the future, we are recommending that the Foundation seek a legal opinion from USAID’s
Office of General Counsel concerning the applicability of this provision to the
Foundation.

        Recommendation No. 2: We recommend that the Inter-American
        Foundation seek a formal legal opinion from the U.S. Agency for
        International Development’s Office of General Counsel as to whether or not
        the provision in Section 501 of Title V of the annual Foreign Operations,
        Export Financing, and Related Programs Appropriations Acts applies to the
        Foundation.

According to the Foreign Operations Appropriation Act of 1999, USAID was to make
available to the Foundation an amount not to exceed $20 million from its Development
Assistance appropriation. The funds appropriated to USAID, and subsequently
transferred to the Foundation, were “two-year” funds that were available for obligation
through September 30, 2000. Section 501 of Title V of the same Act includes a provision
that states, “…not more than 15 percent of any appropriation item made available by this
Act shall be obligated during the last month of availability8.”

We reviewed the Foundation’s rate of obligation of fiscal year 1999 appropriations to
determine the percentage obligated during September 2000, the final month of
availability. As the Foundation’s original appropriation of $20 million had been reduced
by $34,000 due to a Government-wide rescission, we reviewed the obligations associated
with the remaining balance of $19,966,000. We found that as of September 30, 2000, the
Foundation had obligated the entire balance of its fiscal year 1999 appropriations. Of
that amount, $896,500, or 4.5 percent, was obligated during September 2000, well below
the 15 percent limitation in Section 501.

Although the Foundation’s rate of obligation for fiscal year 1999 appropriations complied
with the 15 percent limitation provision, the Foundation’s General Counsel expressed the
opinion that this requirement did not apply to the Foundation because it was overcome by




8
  This same general provision has also been included in Section 501 of Title V of the appropriation acts for
foreign operations in fiscal years 2000 and 2001.
                                                    6
Section 537 of the same Act9. Nevertheless, the Foundation’s practice has been to
obligate funds early in the period of availability. Section 537 states:


        Unless expressly provided to the contrary, provisions of this or any other
        Act, including provisions contained in prior Acts authorizing or making
        appropriations for foreign operations, export financing, and related
        programs, shall not be construed to prohibit activities authorized by or
        conducted under the Peace Corps Act, the Inter-American Foundation Act
        or the African Development Foundation Act.

We believe that the 15 percent requirement in Section 501 does apply to the Foundation.
In our opinion, the above paragraph reflects Congress’ intent to allow the Foundation to
operate in countries where other U.S. agencies are prohibited from operating and was not
intended to exempt the Foundation from all restrictions and provisions in this or any other
act. However, for future reference, we recommended that the Foundation seek a
definitive legal opinion on this issue from USAID’s Office of General Counsel. In
response to this recommendation, Foundation management indicated that it would request
a legal opinion for USAID’s Office of General Counsel. Based upon management’s
response to Recommendation No. 2 we concur with management’s decision, and look
forward to the result of USAID’s General Counsel’s legal opinion.


Did the Inter-American Foundation properly categorize program and operating
costs?

For the items tested, the Foundation categorized program and operating costs in
accordance with a format prescribed by the Office of Management and Budget (OMB).
Although the Foundation did improperly allocate one charge, the amount was not
material in comparison to the Foundation’s annual budget.

OMB Bulletin 97-01, Form and Content of Agency Financial Statements, defines
program costs as the direct costs and all other costs that can be directly traced, assigned
on a cause-and-effect basis, or reasonably allocated to program outputs. Legislation
providing the Foundation’s funding has not required that the Foundation account for
program costs and operating costs separately. However, OMB has, through a series of
correspondence with the Foundation, prescribed a specific budget format that the
Foundation has agreed to use.

In accordance with this correspondence, the Foundation budgets and accounts for
obligations and expenditures of appropriations by classifying them as either program
costs or operating costs. Additionally, per this guidance, the Foundation classifies
program costs under three distinct categories: Development Assistance (development

9
  While this provision is found in Section 537 of the Foreign Operations Appropriations Act for fiscal year
1999, the same provision was renumbered as Section 535 in the foreign operations appropriation acts for
fiscal years 2000 and 2001.
                                                      7
grants), Development Research and Dissemination (research grants), and In-Country
Support (technical assistance and other activities). All other costs are classified under
Program Management and Operation (operating costs).

We reviewed a judgmental sample of fiscal year 2000 transactions to determine whether
the Foundation was properly categorizing costs. All sampled costs were properly
categorized except for one procurement request for $35,000. The Foundation charged
this request, to design and print the Foundation’s 1999 Year in Review, as a program cost
rather than an operating cost. OMB had instructed the Foundation to classify all costs
related to general Foundation publications under its “Program Management and
Operation” category. OMB specifically identified the Foundation’s Annual Review as
such a general publication. Due to this misclassification, the Foundation’s program costs
may have been slightly overstated and operating costs may have been slightly understated
for fiscal year 2000. As nothing came to our attention to indicate that this was a systemic
problem, we have not made a formal recommendation that the Foundation take corrective
action in this regard.




                                            8
________________________________________________________________________
Management Comments and Our Evaluation
In response to Recommendation No. 1, in which we recommended that the Foundation
promptly complete the process of awarding competitive contracts to obtain in-country
technical assistance for its grantees, Foundation management stated that it would proceed
with awarding competitive contracts. However, management added that this action
would not require any change in the Foundation’s conduct or policies because it had
already begun the process prior to our audit. Based on management’s comments, we
concur with management’s decision.

Although management indicated that the Foundation would award competitive contracts
to obtain in-country technical assistance for its grantees, management noted that the draft
report seemed to establish a standard of review for the Foundation's selection of a
funding mechanism that was inconsistent with the practices of other federal agencies.
With regard to the standard of review used during the audit, we note that we relied on
criteria―the Federal Grant and Cooperative Agreement Act of 1977―applicable to all
federal agencies.

Management also provided additional information support its original view that
cooperative agreements were appropriate mechanisms for obtaining in-country services.
However, because management has decided to use contracts, instead of cooperative
agreements, we no longer consider this issue t be relevant and have consequently deleted
our discussion of it from the report.

Concerning Recommendation No. 2, which dealt with a provision to not obligate more
than 15 percent of appropriated funds in the final month of availability, Foundation
management agreed to implement the recommendation by seeking a legal opinion from
the USAID Office of General Counsel regarding whether Section 501 of the annual
foreign operations appropriation act applies to the Foundation.             According to
management, the Foundation obligates 85 percent of its appropriated funds before the last
month of availability as a matter of policy and good management. Nevertheless,
management maintained that the Foundation was exempt from Section 501 and that the
draft report relied on Congressional intent that the Foundation was unable to trace. Based
on management’s comments, we also concur with management’s decision. Barring
USAID General Counsel’s legal opinion to the contrary, we continue to believe that
Section 501 applies to the Foundation.

Management’s comments are included, in their entirety, as Appendix II.




                                            9
[This page intentionally left blank]




                10

                                                                              Appendix I



Scope and Methodology

Scope

The Office of Inspector General (OIG) conducted an audit of selected processes at the
Inter-American Foundation. The audit was requested on behalf of the U.S. Senate
Committee on Foreign Relations. Fieldwork was conducted at Foundation headquarters
in Arlington, Virginia, from November to December 2000. All work was conducted in
accordance with generally accepted government auditing standards.

The scope of the first audit objective included all Foundation in-country service contracts
that expired during fiscal year 2000, as well as all new ICS contracts awarded as of the
time of our audit. We included 100 percent of such contracts in our review. As all
contracts for in-country services were reviewed as a group, we determined that
materiality thresholds were not appropriate for this objective.

The scope of the second objective included all obligations made during fiscal years 1999
and 2000 and funded with fiscal year 1999 appropriations of $19,966,000. Our tests
incorporated 100 percent of those obligations. As we dealt with cumulative balances
over a two-year period, we determined that materiality thresholds were not appropriate
for this objective either.

The scope of the third objective consisted of obligations made during fiscal years 1999
and 2000 and funded with fiscal year 1999 appropriations of $19,966,000, as well as the
Foundation’s fiscal year 2001 budget request. As part of our risk assessment, we
conducted limited testing to determine how the Foundation was categorizing program and
operating costs. We rated the risk of misclassifying costs as low, therefore, we decided
that neither materiality thresholds nor expanded testing would be necessary.

Methodology

To accomplish these audit objectives we interviewed officials from the Foundation,
USAID, OMB, and OIG. We also examined pertinent documents and performed the
following tasks:

•	 reviewed GAO’s Federal Appropriations Law-Volume II, applicable sections of the
   Federal Acquisitions Regulation, the Competition in Contracting Act, the Inter-
   American Foundation Act, the Federal Grant and Cooperative Agreement Act, and
   the Foreign Assistance Act;



                                            11
                                                                              Appendix I


•	 reviewed files for In-Country Service contracts that expired in fiscal year 2000 and all
   fiscal year 2001 contracts for Country Liaison Offices in effect at the time of our
   audit;

•	 reviewed monthly obligations for the Foundation’s fiscal year 1999 appropriations
   and supporting accounting entries;

•	 assessed management controls with respect to each of the audit objectives;

•	 reviewed the Foundation’s fiscal year 2001 budget request and applicable OMB
   guidance; and

•	 tested a sample of cash disbursements (35 transactions across 9 object class codes) as
   well as three additional transactions which we believed to be problematic.




                                            12
                       Appendix II


MANAGEMENT COMMENTS





         13

      Appendix II




14

